<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 116-327]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-327
 
                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   on


                        S. 143         S. 1685
                        S. 983         S. 1741
                        S. 1064        S. 1857
                        S. 1183        S. 2048
                        S. 1593        H.R. 1138
                        S. 1602
 


                               __________

                              JULY 9, 2019

                               __________



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                             ______

                U.S. GOVERNMENT PUBLISHING OFFICE 
 37-809                WASHINGTON : 2021        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman

JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota
                                 ------                                

                         Subcommittee on Energy

                         BILL CASSIDY, Chairman

JAMES E. RISCH                       MARTIN HEINRICH
MIKE LEE                             RON WYDEN
STEVE DAINES                         MARIA CANTWELL
CORY GARDNER                         BERNARD SANDERS
CINDY HYDE-SMITH                     DEBBIE STABENOW
MARTHA McSALLY                       MAZIE K. HIRONO
LAMAR ALEXANDER                      ANGUS S. KING, JR.
JOHN HOEVEN                          CATHERINE CORTEZ MASTO

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
  Brianne Miller, Senior Professional Staff Member and Energy Policy 
                                Advisor
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                Renae Black, Democratic General Counsel
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Cassidy, Hon. Bill, Subcommittee Chairman and a U.S. Senator from 
  Louisiana......................................................     1
Heinrich, Hon. Martin, Subcommittee Ranking Member and a U.S. 
  Senator from New Mexico........................................     4

                               WITNESSES

Collins, Hon. Susan, a U.S. Senator from Maine...................     3
Klobuchar, Hon. Amy, a U.S. Senator from Minnesota...............    14
Walker, Hon. Bruce J., Assistant Secretary, Office of 
  Electricity, U.S. Department of Energy.........................    15
Bennett, Shawn, Deputy Assistant Secretary for Oil and Gas, 
  Office of Fossil Energy, U.S. Department of Energy.............    25

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Acuity Brands, et al.:
    Letter for the Record........................................     5
American Public Power Association, et al.:
    Letter for the Record........................................     8
Bennett, Shawn:
    Responses to Questions for the Record........................    61
Cassidy, Hon. Bill:
    Opening Statement............................................     1
Collins, Hon. Susan:
    Opening Statement............................................     3
Ernst, Hon. Joni:
    Statement for the Record.....................................    63
Federal Performance Contracting Coalition:
    Letter for the Record........................................    65
Ford, Richard W.:
    Letter for the Record........................................    67
Heinrich, Hon. Martin:
    Opening Statement............................................     4
Information Technology & Innovation Foundation:
    Letter for the Record........................................    68
Klobuchar, Hon. Amy:
    Opening Statement............................................    14
Matheson, Jim:
    Letter for the Record........................................     9
National Association for State Community Services Programs:
    Letter for the Record........................................    11
National Association of State Energy Officials:
    Letter for the Record........................................    12
National Community Action Foundation:
    Letter for the Record........................................    13
Walker, Hon. Bruce J.:
    Opening Statement............................................    15
    Written Testimony............................................    18
    Responses to Questions for the Record........................    43

                               __________
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: https://www.energy.senate.gov/
hearings/2019/7/subcommittee-on-energy-legislative-hearing.


                          PENDING LEGISLATION

                              ----------                              


                         TUESDAY, JULY 9, 2019

                               U.S. Senate,
                            Subcommittee on Energy,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:00 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Bill Cassidy, 
presiding.

            OPENING STATEMENT OF HON. BILL CASSIDY, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Cassidy [presiding]. The hearing shall come to 
order.
    Good morning. Today the Committee comes together for a 
legislative hearing on several bills. I appreciate the 
opportunity to work with Senator Heinrich, the Subcommittee 
Ranking Member, to address key issues in our energy portfolio.
    This hearing will allow us to receive testimony and ask 
questions from the Assistant Secretary for the Office of 
Electricity, Mr. Bruce Walker, and the Deputy Assistant 
Secretary for Oil and Gas from the Office of Fossil Fuel, Mr. 
Shawn Bennett.
    The Department of Energy (DOE) will play a critical role in 
helping the U.S. and the world lower emissions which is, of 
course, a global problem. If we want to be leaders, we need to 
provide a model that others can follow and part of that model 
is showing the world that, through innovation, we can lower 
emissions and maintain a modern economy.
    Through technological breakthroughs, such as carbon capture 
and energy storage, we have the opportunity to show such a 
model. However, if we are to reach these breakthroughs, we must 
ensure that right policies are in place to set up success. 
There has been promising breakthroughs in each area, and I hope 
we can continue to build.
    One of the bills on the docket I have been working on with 
my colleague, Senator Cornyn, is S. 1685, the Launching Energy 
Advancement and Development through Innovations for Natural Gas 
Act, or the LEADING Act. This bill requires the U.S. Department 
of Energy to establish a research, development and 
demonstration program for carbon capture technologies for use 
by natural gas generating power facilities.
    I want to acknowledge the hard work that DOE is already 
doing to develop such technology for both coal and natural gas, 
but as we continue to increase natural gas consumption, new 
challenges arise and we must keep natural gas competitive.
    The U.S. is leading the world in lowering emissions by 
increasing its use of natural gas and other innovative 
resources. Natural gas is now the main source of energy in the 
U.S., generating 35.1 percent of our electricity in 2018, and 
the U.S. Energy Information Administration expects this number 
to continue to rise for the foreseeable future as more gas 
comes online.
    Natural gas emits 50 to 60 percent less carbon dioxide when 
combusted in natural gas power plants compared with other 
sources. It also supports the deployment of renewable energy. 
Gas power plants can quickly and safely ramp up and down to 
combat the volatility of renewables.
    According to the National Bureau of Economic Research, a 
one percent increase in the share of fast reacting power source 
is associated with almost a 0.9 percent long-term increase in 
renewable generation. Investment in gas is able and necessary 
to support increased use of renewables.
    Developing cost-effective carbon capture technology for 
natural gas plants will help the U.S. continue to lower 
emissions while creating jobs and supporting domestic energy 
production and security.
    Other bills on today's docket include several energy 
storage bills that would each authorize funding to encourage 
energy storage, research development and demonstration.
    S. 143, the Department of Energy's Veterans' Health 
Initiative Act, introduced by Senator Ernst, authorizes DOE to 
conduct collaborative research with the Department of Veterans 
Affairs to improve health care services for veterans in the 
U.S.
    S. 983, the Weatherization Enhancement and Local Energy 
Efficiency Investment and Accountability Act of 2019, 
introduced by Senator Coons, reauthorizes and modernizes the 
DOE's Weatherization Assistance Program.
    S. 1857, the Federal Energy and Water Management 
Performance Act of 2019, introduced by Chairman Murkowski, 
improves federal energy and water performance requirements and 
formally authorizes the Federal Energy Management Program.
    S. 1064, the Appalachian Energy for National Security Act, 
introduced by Ranking Member Manchin, requires DOE, in 
consultation with the Departments of Defense and Treasury, to 
conduct a study and issue a report on the national security 
benefits of the proposed ethane storage and distribution hub 
located in Appalachia.
    Lastly, H.R. 1138, introduced by Representative Reed, would 
reauthorize the West Valley Demonstration Project in West 
Valley, New York.
    Now I will turn to my colleague, Ranking Member Heinrich.
    Senator Heinrich. Actually, Chairman, while we have our 
colleague from Maine, why don't we let her give her testimony 
and then I will come back and give my opening statement so that 
she can move on, if she would like?
    Senator Cassidy. I was halfway through my opening statement 
thinking what in the heck? Why didn't I allow Senator Collins 
to go first? So, I apologize.
    Please, Senator Collins, and thank you.

               STATEMENT OF HON. SUSAN COLLINS, 
                    U.S. SENATOR FROM MAINE

    Senator Collins. Thank you very much. That's very gracious 
of both of you.
    Good morning, Chairman Cassidy and Ranking Member Heinrich. 
I want to begin by thanking you for holding this hearing to 
examine new energy proposals that have been referred to your 
Subcommittee.
    I appreciate the opportunity to testify on the Better 
Energy Storage Technology Act, or BEST Act, that I've sponsored 
with the distinguished Subcommittee Ranking Member, Senator 
Heinrich. I would also like to thank Senators Gardner, Smith, 
McSally, Coons and King, who have joined us as original co-
sponsors.
    Energy storage systems provide a wide range of benefits, 
including improving the reliability of our grid, decreasing 
energy costs and allowing the increased use of our renewable 
resources. Developing these new technologies is critical.
    Our bipartisan legislation will support the next generation 
of energy storage technologies at the Department of Energy. 
Energy storage technology holds such great promise in the fight 
against climate change. Advancing next generation energy 
storage technology will allow us to integrate more renewables 
such as wind and solar which, in turn, will help to reduce 
emissions. Solutions to the challenges posed by energy storage 
are, in fact, key to expanding our reliance on renewable 
sources of energy.
    Specifically, our bill would support energy storage 
research on highly flexible, longer duration and seasonal 
storage systems. Those are the three areas that the bill 
specifically concentrates on. Second, it would authorize up to 
five demonstration projects. Third, it would direct the 
Department of Energy to establish a strategic plan and allow 
the Department to develop cost targets. We've seen what the 
Department can do working with the private sector. For example, 
the great success the Department had in working with the 
private sector in lowering the cost of solar technology. 
Another provision of the bill would support coordination of 
research across government--so the left hand knows what the 
right is doing. And finally, the bill would authorize $60 
million annually for five years. The BEST Act would help 
advance energy storage technologies to improve the efficiency 
of the nation's electricity grid while helping to promote wider 
use of clean, renewable energy.
    I want to thank you again for holding this hearing. Let me 
just end by saying that I think the energy storage bills are so 
important and exciting. They really represent the new frontier.
    I hope that this Subcommittee will favorably report the 
BEST Act.
    Thank you very much, Mr. Chairman, Ranking Member, my 
colleagues.
    Senator Cassidy. Thank you, Senator Collins.
    Senator Collins. Thank you.
    Senator Cassidy. Senator Heinrich.

              STATEMENT OF HON. MARTIN HEINRICH, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. First, I want to thank Chairman Cassidy 
for calling this hearing today, our first hearing together as 
Chairman and Ranking Member of the Energy Subcommittee. And I 
certainly want to thank our witnesses today.
    The Energy and Natural Resources Committee really hit the 
ground running this Congress with an excellent package of 
public lands legislation. I was very pleased to see that 
legislation get to the President's desk in March, but it left a 
number of really good energy bills behind. And today we begin 
consideration of important energy legislation with 11 bills, 
almost all of which are bipartisan. The list of bills on 
today's agenda could have been, literally, twice as long, so I 
hope the Subcommittee will continue to process legislation with 
additional hearings and a markup in the full Committee.
    We should be able to assemble, fairly quickly, one or even 
more packages of energy legislation that can be marked up in 
the Committee with bipartisan support. I certainly look forward 
to working with the Chairman, Ranking Member Manchin and our 
colleagues on the full Committee to pass important energy 
legislation.
    Today's hearing will address several important energy 
issues including energy efficiency, energy storage, artificial 
intelligence, and carbon capture.
    Energy technologies are one of the critical tools we need 
to address climate change and what many of us believe has 
become a climate crisis. We need to get additional low-carbon 
energy technologies ready for commercialization, and then we 
need to get them deployed.
    Energy storage is clearly a major topic of interest for 
members judging by the five bills before us today. I am pleased 
to be a co-sponsor on several of these bills.
    Expanded use of energy storage, especially long-term 
storage, is the key to modernizing the grid and the near-term 
transition to a clean energy economy. There is widespread 
support in Congress for a robust R&D program on energy storage, 
including long-term storage, and I look forward to working with 
my colleagues to move legislation forward.
    Although the President's FY 2020 overall request for energy 
R&D is wholly inadequate, the Administration has acknowledged 
energy storage as an important area for investment. And I want 
to hear more about the Department of Energy's plans today.
    Again, I want to thank the Chairman for calling today's 
hearing and I look forward to hearing from our witnesses and 
working to pass a number of these bills.
    Before I give up the mic, I just want to ask unanimous 
consent to add a number of letters articulating support for a 
number of the bills on the docket today to be added to the 
record.
    Senator Cassidy. Without objection.
    [Letters of support follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Senator Cassidy. Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much.
    Thank you, Chairman Cassidy and Ranking Member Heinrich and 
all the members of this Committee. It's an honor to be here. 
And thank you for holding this important hearing to examine 
legislation relating to energy storage, grid improvements and 
energy production.
    We all know the important moment we are at in history. And 
what I have seen in the rural areas of my State and across the 
country is that there is more and more interest in how we move 
forward to cleaner energy and to a clean energy grid. Some of 
this is, of course, obvious with the flooding we're seeing in 
the Heartland, and the wildfires. Some of it is simply 
homeowners insurance going up, but people are starting to say 
to themselves, let's see what we can do to be part of this.
    And I appreciate this opportunity to discuss a bill that 
I've introduced with Senator Moran, the Expanding Access to 
Sustainable Energy Act.
    What our bill would do is help rural communities and rural 
electric co-ops overcome barriers to renewable energy storage 
and grid improvements by providing access to needed resources 
and expertise.
    We all know from so many of you from states that have 
significant rural areas that it is not one-size-fits-all when 
it comes to electric companies. And I've spent a lot of time 
out at the electric co-ops in my State, including going up in a 
bucket and doing other various interesting things. One of the 
things that I've learned is they want to be a part of this and 
they want to figure out how they financially can be a part of 
it.
    One of my favorite examples was the Steele-Waseca Electric 
Co-op in Minnesota. Once some incentives were put in place for 
solar, they actually wanted to figure out how to get their 
customers to buy a solar panel, not for their own homes, but 
for an area right outside their co-op. So they came up with an 
idea that they would give a free large capacity water heater, 
which aren't that expensive, which have been found to actually 
be smart for large farmhouses.
    And it was a bill actually Senator Hoeven and I had worked 
on when they were going to be phased out. So they ended up 
doing that, and it was astounding the hundreds of people in 
their small co-op that bought these solar panels because they 
were able to price it out for them. And in exchange they got a 
free large capacity water heater for their basement. So when I 
saw that, I thought, well, we have to do more to incentivize 
these small co-ops.
    This bill is co-sponsored by our colleagues, Senator 
Gardner and Senator King, both members of this Committee, and 
it empowers rural communities and electric co-ops to develop 
their own energy storage and grid improvement projects. By 
providing technical assistance and grant support, the bill 
provides opportunities for these communities to invest in 
improvement. The bill builds upon the success of the Department 
of Energy's Sunday program, which led to a dramatic increase in 
adoption of solar energy by rural electric co-ops, such as the 
one I just mentioned, from 2013 to 2018.
    The recognized need to improve energy grid capacity and 
resiliency, as well as the unpredictability of a day with solar 
and wind power has fueled interest, of course, in energy 
storage as a way to meet electricity demand during peak times.
    While tax incentives have helped spur development of 
renewable energy projects, these incentives do not address the 
most significant barriers to exploration and establishment of 
new renewable energy projects, including storage projects in 
rural communities where help is needed in planning, 
implementing, and maintaining these projects. Our bill would 
address these barriers head-on.
    I believe that extending expertise and support to rural 
communities and rural electric co-ops will improve rural 
community energy resiliency and autonomy, spur economic 
activity, and improve environmental and public health.
    So thank you so much for allowing me to testify in support 
of this bill. It is my hope that you will all support our 
bipartisan effort.
    Thank you very much.
    Senator Cassidy. Thank you, Senator Klobuchar.
    And now, could we have Mr. Walker and Mr. Bennett move to 
the witness table?
    [Witnesses come up and take their seats.]
    Senator Cassidy. Mr. Walker, whenever you are ready.

STATEMENT OF HON. BRUCE J. WALKER, ASSISTANT SECRETARY, OFFICE 
           OF ELECTRICITY, U.S. DEPARTMENT OF ENERGY

    Mr. Walker. Thank you, Chairman.
    Chairman Cassidy, Ranking Member Heinrich and members of 
the Subcommittee, thank you for the opportunity to testify 
regarding these important pieces of legislation.
    First, I would like to thank the members of the Senate 
Energy and Natural Resources Committee for your advocacy 
resulting in the confirmation of Mr. Genatowski, our Director 
of ARPA-E.
    Today's hearing addresses many areas including advancing 
utilizing artificial intelligence (AI) and relational 
computational capabilities for complex problems including our 
veterans' health, optimizing the way we utilize fossil fuels, 
especially natural gas given its importance in electric 
generation, providing federal leadership in energy and water 
conservation and ensuring energy efficiency, health and safety 
investments for low income citizens, and finally grid-scale 
electric energy storage. Each of these are, indeed, crucial 
factors in advancing energy resilience and our economic and 
national security.
    The Department is grateful for the Committee's attention to 
these critical issues in the energy sector. We believe that our 
research and development capabilities consistently demonstrated 
by our national labs is unrivaled and provide unique 
opportunities to address key challenges working with industry 
and academia.
    Specifically, the bills associated with electric energy 
storage technology are timely impression. Grid-scale electric 
energy storage is disruptive and has the opportunity to 
revolutionize the energy industry. Having spent my career in 
the electric industry managing grid operations, I know this 
firsthand.
    By comparison, the significant changes that have been 
realized in the energy industry over the last two years will 
pale in comparison to the remarkable changes and improvements 
that will be realized through ubiquitous grid-scale electric 
energy storage and the related smaller storage technologies 
that will evolve as a result.
    Similar to the computer industry where we witnessed the 
transition from centralized mainframes to highly capable 
networked personal computers, here too, with grid-scale 
electric energy storage, we shall witness the transition from a 
consolidated grid to a disaggregated, more secure, more robust 
and more flexible energy grid.
    The Department, specifically, the Office of Electricity, is 
focused on advancing grid-scale electric energy storage to 
address resilience on the bulk power system, including our 
defense critical electric infrastructure.
    Keenly aware of the threats posed by physical and 
cyberattacks, as well as natural disaster, the Office of 
Electricity is working with other DOE Departments developing 
new tools and technologies to accelerate electric energy 
storage developments through the Grid Modernization Initiative, 
the Advanced Energy Storage Initiative and the Grid Storage 
Launchpad.
    The Office of Electricity proposed Grid Storage Launchpad 
at Pacific Northwest National Lab will focus on expanding or 
extending U.S. R&D grid-scale electric energy storage 
leadership by validating new technologies and earlier readiness 
levels and by accelerating new technologies in partnership with 
industry and academia. The $5 million requested in FY20 will 
fund that design and lead to the construction in subsequent 
years.
    Finally, it is important to highlight that without this 
Committee's insistence, advancing critical technologies such as 
AI, advanced data analytics, grid-scale electric energy 
storage, and carbon capture, utilization and sequestration, 
would simply not be possible.
    And before I close, the Secretary specifically asked me to 
convey his thoughts regarding Senate bill 143, DOE's Veterans' 
Health Initiative Act. ``The health of our nation's veterans is 
one of utmost importance to the Trump Administration, 
especially the U.S. Department of Energy. Using the power of 
the world's fastest supercomputers housed at our national 
laboratories, DOE is uniquely positioned to improve the 
diagnosis of and treatment for the most perplexing diseases our 
war fighters disproportionately suffer from. DOE fueled 
advancements in artificial intelligence and machine learning 
are helping researchers identify and neurologists treat 
traumatic brain injuries and other mental health conditions 
paving the way for better outcomes and a better future for our 
nation's war fighters.
    ``Specifically, the DOE's Veterans' Health Initiative Act 
authorizes DOE, in partnership and coordination with the 
Department of Veterans Affairs, to analyze the world's richest 
medical dataset with the world's most powerful computers to 
transform data into knowledge. This bill is strongly aligned 
with the Administration's stated research and development 
budget priorities that include the American leadership in 
artificial intelligence, maximizing interagency coordination 
and a workforce for the 21st century economy.
    ``All Americans have an obligation to do everything in our 
power to ensure that those who have worn the uniform get the 
best care our country has to offer. It is my highest priority 
to apply DOE's world leading computational capabilities to 
research and the development of new ways to improve and 
positively impact their lives.'' Secretary Rick Perry.
    Thank you and I look forward to the discussion today.
    [The prepared statement of Mr. Walker follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Cassidy. Mr. Bennett, it is my understanding that 
you do not have an opening statement, correct?
    Mr. Bennett. That is correct.
    Senator Cassidy. Okay. Well then, let's start with 
questions.
    I will defer to Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Mr. Bennett, I appreciate your statement, thank you.
    [Laughter.]
    Just kidding. Efficiency of the Committee under the new 
leadership, thank you, Chairman Cassidy.
    I want to thank you for holding this very important hearing 
and to both of the witnesses today, Mr. Walker and Mr. Bennett, 
for being here.
    I want to, first of all, start by thanking you, Mr. Walker, 
for your support of the bill that you concluded with, the 
Veterans' Health Initiative. I think this is an incredible 
opportunity for us to capture a couple things that the U.S. is 
leading on, of course, artificial intelligence, our computer 
capabilities, our supercomputers within the Department of 
Energy and the lab system, particularly Oak Ridge and others 
that we can harness the information we have through the 
Veterans Administration. Working with our veterans to improve 
health care through advanced cutting-edge technologies and 
applications really is something that could be seen as one of 
the great accomplishments of this Congress.
    We all agree that the Department of Energy's brain trust to 
their ability to harness computational capabilities is 
incredible and have solved many difficult problems in the past 
and can also, now, be applied to help our veterans.
    When it comes to the storage bills that we have talked 
about today, Senator Collins testified about, it appears the 
Department is supportive of the Better Energy Storage 
Technology Act and the Promoting Grid Storage Act, both of 
which I am proud to be a part of. Thank you for that.
    And as the Department completes its analysis of the 
Expanding Access to Sustainable Energy Act, I hope it will see 
the benefit of supporting rural electrical cooperatives to 
explore electrical energy storage opportunities in rural 
America as well.
    You and I have talked at length about the defense critical 
electric infrastructure in the past, and I am committed to 
giving the Department of Energy the authorities that it 
requires to fulfill its role as the sector specific agency for 
energy.
    We have a lot more work to do in this area, and I think the 
two bills today will be a step in the right direction.
    Do you think that the joint long-term storage acts focus on 
demonstrating long duration, electrical energy storage in 
collaboration with the Department of Defense will be a helpful 
tool in protecting defense critical electrical infrastructure?
    Mr. Walker. Thank you, Senator, for that question.
    Indeed, I do. The work we've been doing through the 
initiatives regarding the defense critical electric 
infrastructure which was, you know, astutely placed in the FAST 
Act, have allowed us to work very closely with the Department 
of Defense, our own National Nuclear Security Administration, 
NNSA, within DOE, as well as DHS to prioritize and work through 
identifying the most critical infrastructure throughout the 
United States.
    In fact, we are working and have been working for over a 
year with the Department of Defense with regards to 
opportunities to utilize storage technologies as well as other 
microgrid technologies, to better secure and improve the 
resilience capabilities for those sites, clearly on a 
prioritized basis. And I thank you for your support and the 
discussions we've had with regard to that, Senator.
    Senator Gardner. Yes, thank you, Mr. Walker.
    And the Federal Energy and Water Management Performance Act 
would increase FMP's focus on the Federal Government's energy 
resiliency. Do you think that is also something that could be 
useful in conversations, collaborations, with the Department of 
Defense (DoD)?
    Mr. Walker. Absolutely.
    One of the things that we've realized through our work with 
DoD, specific to the defense critical electric infrastructure, 
is that there are many capabilities of renewable technologies 
that are on or nearby those sites. And we believe that there 
are opportunities for us to leverage those renewable 
capabilities working with the base to maximize and look at 
energy utilization as well as water utilization. So, yes, sir.
    Senator Gardner. Thank you.
    One of the great things about Colorado, of course, is we 
are home to NREL and the opportunities we have there to utilize 
a vast number of experts in renewable energy and clean energy 
but also home to some of the largest defense installation 
communities in the country. Colorado Springs, you know, Denver, 
are all home to very significant and important national 
security operations and mission sets.
    I hope that we can be of assistance going forward as we 
look at both renewable energy defense resiliency and, you know, 
when you are flying our GPS Constellation out of Schriever Air 
Force Base, we need to make sure that for our national 
security, resiliency is there, but also for our economy that 
relies on the timing and synchronization that we have all of 
the resiliencies in place, resiliency efforts and policies in 
place to make sure that we protect both the security and 
economy of this country.
    So thank you, Mr. Walker.
    Thank you, Mr. Bennett.
    Thanks, Mr. Chairman.
    Senator Cassidy. Senator Heinrich.
    Senator Heinrich. Mr. Walker, I am pleased to be a co-
sponsor on a number of these bills, but I want to ask you about 
how a lot of the work that is being done in storage is being 
done across a number of different departments. There is R&D 
work that is being done, there is work to bring down costs--
those are split up between the Office of Science, ARPA-E, and 
the DOE labs.
    What is the Department doing to make sure that all of this 
disparate work gets shared across those departments so that we 
are not balkanizing this and we are really taking advantage of 
moving those costs down quickly and moving performance up 
quickly in energy storage?
    Mr. Walker. Thank you for that question, Senator.
    That's a fantastic point, one that was recognized by the 
Secretary a couple years ago and has mobilized us to place into 
the FY20 budget an initiative called the Advanced Energy 
Storage Initiative (AESI) which cuts across all of the 
organizations within DOE that you referenced, ARPA-E, 
Department of Science, EERE and Office of Electricity as well 
as FE and the NE space. The intent of that is to coordinate all 
of the cross-cutting efforts under one umbrella that was 
proposed in the budget in an effort to really drive down, 
significantly, the price of storage and, I think, more 
importantly, it also focuses on the different applications.
    So similar to the bills that you noted, there's components 
that deal with transportation. There's components that deal 
with buildings, in front of the meter, behind the meter, as 
well as bulk storage things like electro-chemical things that 
we're working on within the Office of Electricity.
    So through that AESI we have been coordinating across all 
those departments to better understand what each one of the 
aspects each department has been working on and then leveraging 
those through the efforts collaboratively, pooling the money 
together to really make sure that we're addressing storage from 
a 360-degree view. So we're well on our way with regard to that 
initiative that's proposed in the FY20 budget, and we've 
outlined a number of those things.
    One of the key components that I would highlight is the 
metrics for driving down the price which has been mentioned, I 
think----
    Senator Heinrich. Sure.
    Mr. Walker. ----very appropriately in the bills.
    Senator Heinrich. Yes, that is one of the key things about 
storage at this point because lithium-ion has become so 
dominant, there is a tendency to think of that as storage. But 
as we move toward seasonal storage, you know, the kind of 
metrics that are important for transportation, like driving 
down weight, will not be an issue where you have long-term 
storage that never moves. So I want to make sure that we are 
tackling that from all sides.
    I want to ask you about something that is related to all of 
this, which is artificial intelligence, which came up today as 
well. I am curious where you see the near-term opportunities 
for using both AI and machine learning in terms of optimizing 
our grid operations and really optimizing the amount of clean 
electrons we can get on the grid at any given moment?
    Mr. Walker. Excellent. That's a key focus of mine, 
particularly as we move forward with the development of the 
North American Energy Resilience Model which is a model that 
integrates all the bulk power energy infrastructure throughout 
the United States. And that is important today because of the 
interdependencies across the different infrastructure, energy 
infrastructure and, most notably, one of the key areas is 
megawatt-scale renewable technology.
    So the utilization we've already been working with our AI 
Department within the Department of Energy to analyze the 
information that is included in that North American Energy 
Resilience Model to be able to optimize the utilization of all 
of the energy sector capabilities, integration of renewable 
technologies to support the resilience of the grid as well as 
being able to incorporate different capabilities and 
technologies like automated restructuring of relay protection 
to avoid outages, particularly for the most critical 
infrastructure in the United States.
    So AI is playing a key component in this. There are a 
number of projects underway particularly as it relates to that 
North American Energy Resilience Model which has a huge 
component developed focusing on grid storage.
    Senator Heinrich. I am glad to hear that.
    When my dad was a lineman, he had to check those relays 
manually. It is a big difference.
    Talk to me a little bit about direct air capture. I think 
it is something we have not adequately resourced from an R&D 
standpoint yet. What is the current thinking at DOE on direct 
air capture?
    Mr. Walker. I'm sorry, I'm having trouble hearing the first 
word.
    Senator Heinrich. Direct air capture.
    Mr. Walker. Direct air capture for----
    Senator Heinrich. For CO<INF>2</INF>.
    Mr. Walker. Do you want to go with that, Shawn?
    Senator Heinrich. Mr. Bennett?
    Mr. Bennett. Ranking Member Heinrich, yes, I'll be pleased 
to take that question.
    In 2018 the Office of Fossil Energy actually worked with 
the National Academies of Science on a report of negative 
emissions technologies and reliable sequestration which is 
direct air capture. Really the report concluded that direct air 
capture in its current form is too expensive and immature to 
have a wide range of, you know, wide range of scale deployment.
    Senator Heinrich. But you could say that about carbon 
capture and sequestration too.
    Mr. Bennett. Yes, well, you can say that for that, and we 
can get to that here in a bit.
    Now what we are doing in that space and we continue to work 
diligently in that space.
    On July 24th we are hosting a forum with 40 scientists and 
engineers for their input on key areas that we need to address 
to bring down the cost of direct air capture and learn more 
about that to be able to utilize this more on a commercially 
viable technology.
    So, you know, what we gleaned from the 2018 study was the 
fact that we needed to meet the scientists and engineers to 
bring down or get more input from the stakeholders to be able 
to implement a more robust R&D technology focus for the Office 
of Fossil Energy.
    Senator Cassidy. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    This is for Mr. Walker.
    In April I visited the Lawai Solar and Storage Facility on 
Kauai Island. It is the largest combined solar and battery 
storage facility in the world, and it generates 11 percent of 
Kauai's power and can serve as much as 40 percent of the 
evening peak power demand on the Island of Kauai for the Kauai 
Island Utility Co-op.
    Hawaiian Electric is also pursuing six new combined solar 
and storage projects on other islands, enough to serve 105,000 
homes.
    Hawaii is on the leading edge of energy storage and finding 
ways to cut pollution and use high amounts of renewable power. 
Kauai is already at 50 percent renewable power, and we are at 
27 percent statewide.
    I think we need a similar focus nationwide, which is why I 
am pleased to be a co-sponsor of one of the bills we are 
considering today, S. 1593, the Promoting Grid Storage Act of 
2019, introduced by Senator Smith. It will provide over $1 
billion over five years to accelerate the research, development 
and demonstration of energy storage technologies while helping 
organizations or communities design and develop energy storage 
systems to meet their needs.
    On page 3 of your testimony you say that the DOE agrees 
with and recognizes--and this is regarding S. 1593, which is 
the bill I am talking about--the need to provide analytical and 
technical assistance, especially for state, local, other 
relevant stakeholders. So you recognize the need. My question 
is, does the Office of Electricity have the expertise to carry 
out a nationwide program to accelerate energy storage research, 
development, and deployment along the lines of S. 1593 if 
Congress directs it to do so?
    Mr. Walker. Thank you for the opportunity to answer that 
question.
    In fact, we do. We do have that capability and as part of 
the FY20 budget we proposed a Grid Storage Launchpad. There's 
$5 million in FY20 proposed to build out the capabilities based 
on our analysis thus far at the Pacific Northwest National Lab 
(PNNL).
    We are in our alternative analysis component of that. We're 
working with PNNL. And what that does is it enables us to 
leverage the different areas, similar to my response to Senator 
Heinrich, with regard to the advanced energy storage 
initiative. So the Grid Storage Launchpad will bring together 
all the capabilities of our national labs in one place.
    Senator Hirono. This bill calls for $1 billion over five 
years, and you are telling me you have the capability with $5 
million. Is that what you are saying?
    Mr. Walker. No, the $5 million, Senator, is to do the 
design engineering analysis for the building of one facility 
that brings together all the capabilities that we have within 
our national labs at one of our national labs and that becomes 
the focal point to deal with industry and academia, where in 
fact, we would be bringing together the expertise at 23 labs.
    Senator Hirono. So you would use the $5 million to do the 
kinds of things that the bill, S. 1593, will----
    Mr. Walker. No, ma'am.
    The $5 million is simply to do the engineering to actually 
be able to construct the building over the next several years 
with appropriation.
    Senator Hirono. So can you say then that you do have the 
capability now to perform the requirements of S. 1593?
    Mr. Walker. We are, you know, working on what is suggested 
through many of the bills here today, not at the, obviously, 
with the amount of funding resources that are being offered.
    You know, the work that we do, predominately, at PNNL and 
Sandia, Argonne, is work that is being done to push all of the 
different components that are highlighted in these bills, but 
we don't have anywhere near a billion dollars over the period 
of time.
    Senator Hirono. Yes.
    Would you say that this Administration has a major 
commitment toward R&D for energy storage? Would you say that 
there's a major commitment?
    Mr. Walker. I would say there is and, in fact, in FY20 with 
the advent of the Advanced Energy Storage Initiative and the 
Grid Storage Launchpad, those are the initiating points from 
which to jump from in order for us to move forward in a much 
bigger way.
    Senator Hirono. I am very hopeful that that is actually 
what is going to happen.
    Let me say, as I run out of time, I was glad to join Chair 
Murkowski and Ranking Member Manchin and Senators Gardner, 
Shaheen and Portman in co-sponsoring the Federal Energy and 
Water Management Performance Act. This bill would codify the 
Federal Energy Management Program (FEMP) and update federal 
energy and water performance requirements for federal 
buildings. So this is a bill that simply codifies an existing 
program, is it not?
    Mr. Walker. That's correct.
    Senator Hirono. And yet, in page 4 of your testimony you 
say that because of complexity you are reviewing this bill. Why 
do you have to review a bill if it is simply codifying an 
existing program?
    Mr. Walker. The--I'm not sure of the distinction you're 
making, Senator, with regard to codifying the FEMP. It was what 
has been utilized since 1976 with great success----
    Senator Hirono. So you would have no problem with this bill 
actually codifying what you are already doing?
    Mr. Walker. We do not.
    Senator Hirono. Okay.
    So then would you be able to detail--could I just ask one 
little follow-up question? Can you detail how much energy and 
taxpayer money the Federal Energy Management Program has saved 
to date from this existing program and explain the savings in 
energy, water, and money that would come from raising the water 
and energy efficiency standards for federal buildings as laid 
out in the bill? This may require a more thorough answer. So if 
you could submit your answer to this question for the record, 
that would be fine.
    Mr. Walker. Yes, very broadly, we've reduced energy costs 
by 50 percent since the inception of this, resulting in about 
$50 billion of savings.
    There are seven key metrics that there is detailed 
information that I'd be happy to provide on a QFR back with 
regard to those seven metrics that are at, have and continue to 
be measured.
    Senator Hirono. Thank you very much.
    Senator Cassidy. Thank you.
    Chairman Murkowski.
    The Chairman. Thank you, Mr. Chairman, and to your Ranking 
Member. Thank you for having this Subcommittee hearing this 
morning.
    Following on Senator Hirono's comments, I am pleased to be 
able to be working on this Federal Energy Water Management 
Performance Act measure, moving it forward. I appreciate the 
endorsement.
    I think when we look to different ways that we can lead by 
example when it comes to long-term energy efficiency, water 
usage reduction goals, this is pretty much a no brainer here, 
in my view, and certainly an area where we can work to reduce 
costs to taxpayers over time.
    So I appreciate that that is on the agenda, but I think the 
real main attractions this morning are the energy storage 
bills. I think we have done some good work here in the 
Committee in focusing on the role that energy storage will play 
in our clean energy future. I think not only do we have broad 
bipartisan support in this space, but we have colleagues over 
on the House side that are working on it as well.
    Back in June we had an oversight hearing on grid-scale 
energy storage, and it was pretty clear then that expanded 
deployment really does offer us an opportunity to make the grid 
just that much more resilient, that much more clean and 
certainly more affordable.
    I had an opportunity, and I have shared with my colleagues 
here, the opportunity to go to Cordova just a month ago to cut 
the ribbon on an energy storage facility there in Cordova. They 
continue to lead and innovate. And I know that you, Assistant 
Secretary Walker, have had an opportunity to see for yourself 
all the good things that come out of that little town.
    But we now have a new battery system that is paired with 
existing run-of-river hydropower. We are reducing the reliance 
on diesel fuel. We are managing demand fluctuations. We are 
lowering the energy costs for the city's residents. It is just 
all good.
    I think the next step for us as a Committee is to really 
work to develop these storage technologies more broadly. The 
five bills that we have before the Subcommittee this morning, 
again, indicate the level of interest and it is encouraging 
that it is not only bipartisan, it is in more remote and rural 
areas and urban and clearly very bicameral. These are exactly 
the types of initiatives that I think we can advance at a time 
when everyone says that the Congress cannot get anything done. 
So I encourage the work of the Subcommittee this morning.
    I am not going to be staying for the duration of the 
hearing here, but I am looking forward to the discussion and 
better understanding of what DOE is doing in the space of 
energy storage, what further support we can provide, the 
direction that you would like from this Committee and from 
those of us here in the Senate.
    So we have some good things going on, and I am hopeful that 
this will, again, be one of those initiatives that can really 
break what we are seeing with the legislative log jam because 
of good cooperation.
    My goal, recognizing that we have five different bills out 
there, is to really evaluate where we are with them, synthesize 
the various bills and the concepts, take in the best provisions 
that we have in each of them, combining them into, perhaps, a 
larger, more comprehensive energy storage package that we will 
be able to report out of the Committee.
    I hope that we would be able to do that, possibly as early 
as the end of this month or more likely in September. But 
again, I am optimistic about this space and what it is that we 
can do.
    I appreciate your leadership and that of many of the 
members on this Committee and outside the Committee that have 
weighed in on this very important matter.
    I am not going to ask questions of our witnesses this 
morning but just thank you for the work that you are doing to 
help us here at the Committee level.
    Thank you, Mr. Chairman.
    Senator Cassidy. Thank you, Madam Chair.
    Senator Manchin.
    Senator Manchin. Thank you very much, Mr. Chairman.
    I want to thank both of you for holding this Subcommittee 
hearing because it is extremely important to our energy 
package. Hopefully we will have an energy bill this year, and 
it would be a great part of that.
    But let me just say that West Virginia is an all-in energy 
supplier, if you will. We are heavily, as you know, coal 
industry. We have an ocean of natural gas under us with wet 
properties and propane, ethane, and butane. We have been 
blessed, but also, we have an awful lot of wind, which we are 
taking advantage of, and solar is coming on. So we are a little 
bit on all sides. We are for everything.
    We think innovation is the way to go. Elimination is not 
going to work because the rest of the world will not follow 
elimination. But if we can innovate, we can do much better.
    In 1920 in the Kanawha Valley in West Virginia, we built 
one of the first petrochemical crackers. And now, with all the 
wet properties we have with the gas boom, shale gas boom, in 
our neighboring states, Ohio and Pennsylvania, West Virginia is 
in the epicenter of this whole center of newfound energy.
    I have also talked to Secretary Perry and he said, ``Joe, 
I've seen the model of the Class 5 hurricane coming up the 
Houston Channel and what it does to cripple the energy of our 
country and the dependency that we have.'' So we are looking 
for a backup in West Virginia, in that area there, Ohio, 
Pennsylvania, West Virginia, with all the energy it has stored 
there--the protection of the mountains and everything else, is 
a natural hub.
    We are talking about a storage hub, petrochemical storage 
hub, for all of our wet properties that can be used for a 
renaissance, if you will, in the chemical industry as far as 
making products--manufacturing again--but also the backup 
energy needs of this country as far as the stabilization.
    Can you provide any type of an update regarding the 
President's Executive Order directive to examine the 
Appalachian region as a candidate for economic development in 
the nation's petrochemical sector?
    Mr. Bennett. Yes, Ranking Member Manchin, and I appreciate 
those comments. Not many people know where Kanawha, West 
Virginia, is and the Kanawha Valley and I'm from Ohio and, you 
know, back in April----
    Senator Manchin. You are not far from us then.
    Mr. Bennett. Oh, 45 minutes away from the Ohio River and, 
you know, within six months in 1859, 1860, we started----
    Senator Manchin. Well, when you think about it, nylon was 
invented in Charleston, all the things that we did for the war, 
all the things that our little state has done because of the 
energy. We have been blessed with energy. Now people want to 
curse us a little bit, but we are doing it better and we want 
to continue to improve.
    Mr. Bennett. That is correct.
    Senator Manchin. An all-in policy.
    Mr. Bennett. I've seen you at the Polymer Corridor coming 
right up through Parkersburg.
    Senator Manchin. Yes.
    Mr. Bennett. And you know, we understand the importance of 
the petrochemical industry within----
    Senator Manchin. How does it play within the President's--
--
    Mr. Bennett. You know, and Secretary Perry has been very 
fond of talking about creating an Appalachian petrochemical 
complex storage hub in the region because he recognizes the 
importance from an economic security standpoint.
    You know, he has said many times, you know, that one of the 
things that kept him awake at night was a hurricane coming up 
the Houston ship channel and with that you need to have a 
diversity of your petrochemical manufacturing.
    So we are definitely looking at that and through that came 
the President's Executive Order and Section 9 of that, so we 
are hard at work on supplying that Executive Order. I believe 
it will be due here then, what, August? Yeah, in August, that 
we will have that report complete. But again, in that report we 
do recognize the importance of Appalachia and the diversity of 
your economic security for, you know, polymer and petrochemical 
manufacturing.
    Senator Manchin. Let me just say something that I don't 
know, and I am sure that Secretary Perry and I have talked 
about this, but there is no CFIUS review of propane, ethane, 
and butane which are the building blocks.
    China is trying to buy every drop of propane, butane, and 
ethane in that new shale industry. If they do, they will suck 
out every opportunity that we have for revitalization of 
manufacturing as far as energy protection we need for our 
country.
    I hope that you all are aware of this. I hope that you are 
aware of what they are trying to do, because we are trying to 
stop it. They came into the little State of West Virginia and 
offered an $83 billion deal with a ``B.'' Now you throw $83 
billion at any State, especially a little State like West 
Virginia, and it seems to be very attractive for people that 
don't know what their end game is. I want to go on record 
saying that we will do everything we can to stop them from 
taking this product without the review of how it is needed for 
the security of our nation, our country, and our states.
    I don't know if you all have been aware of that? I would 
like to put you on record to understand that we have a concern 
there, and I hope you look into it.
    Mr. Bennett. Yes, and thank you for that concern. And 
again, we definitely share in wanting to have the petrochemical 
manufacturing industry stay in Appalachia. Again, where you're 
seeing the growth in natural gas as well as natural gas liquids 
is coming, really, out of West Virginia, Pennsylvania and Ohio.
    Senator Manchin. Right.
    Mr. Bennett. If you take that, if you took those three 
states and put them as a country, we'd be the third largest 
natural gas producer in the world.
    Senator Manchin. Alright.
    Mr. Bennett. And that's just fascinating to me.
    Senator Manchin. And then the petrochemical industry we 
have, it is a footprint of what it used to be. I mean, we are 
about 50 percent.
    So we can expand without any additional infrastructure 
because it is already there waiting to take off again.
    Mr. Bennett. Yes, and currently where you're seeing the 
ethane move to is the Gulf Coast and a lot of that is being 
used----
    Senator Manchin. It is moving by pipeline, yeah.
    Mr. Bennett. Within the petrochemical complexes on the Gulf 
Coast and then ultimately gets shipped back up to our region of 
the United States and up to Chicago and so----
    Senator Manchin. I am glad you all know about that. I hope 
you can help us with that, but I think it would be great for 
our country and great for the security of our nation.
    Thank you very much.
    Mr. Bennett. Yup.
    Senator Cassidy. Senator King.
    Senator King. Thank you, Mr. Chair.
    I think there has been a little discussion of this but I 
want to inject another point into this discussion. Senator 
McSally and I are both members also, and Senator Heinrich, of 
the Armed Services Committee and energy, particularly the 
transportation of energy, is more and more important to our 
military, everything from radios on the backs of soldiers to 
fuel for tanks.
    During one of the Gulf Wars, Secretary Mattis said, 
``Unleash me from the tether of fuel.'' It was a real problem. 
In fact, lack of fuel stopped George Patton in World War II 
when he was heading across Europe.
    So this is not only important for the grid and for the 
economy, generally, but it is a national security issue. And 
Senator McSally, Senator Heinrich and I have a bill, and I 
think Senator Gardner may have mentioned it, to work to develop 
a joint project between the Department of Defense, which is 
already doing research in this area, and ARPA-E or the 
Department of Energy. I hope that you will look with favor on 
that proposal. I think it makes a lot of sense, because this is 
an aspect of this issue that does not get all that much 
discussion.
    The Defense Department is the largest single energy user in 
the United States, and battery storage and storage for them is 
not only something nice to have, important to have, but it is 
vital to national security concerns.
    I would like your thoughts on that.
    Mr. Walker. Yes, Senator, thank you for the opportunity to 
speak on this.
    This is a critically important issue and one that I am 
keenly aware of as I lead the Defense Critical Electric 
Infrastructure Initiative for the Secretary in the Department 
of Energy. And specifically, with regard to that, the 
Department of Defense has been a close partner in working with 
the Department of Energy on the nexus of the concept of energy 
on base as well as for any of the ancillary capabilities that 
they actually require.
    So we are working very closely right now with the 
Department of Defense. We have a number of pilot projects 
underway, under our existing storage programs, some very 
specific sites. We're working through different R&D 
capabilities to, you know, enable utilization of different 
storage capabilities, utilizing and capitalizing on much of, 
many of the renewable components and capabilities that were 
previously put on these sites but tend to be grid-facing and 
not base-facing.
    So I applaud the bill that you're proposing with regard to 
the partnership with DoD because it significantly expands our 
capability to leverage the expertise within DOE within our 
national labs and our partnerships within industry and academia 
to meet the needs of our most important and critical 
infrastructure throughout the U.S.
    Senator King. I appreciate that and I look forward to 
working with you on working out the bill to an extent where the 
Administration can support it. We can move forward, make it 
part of this important package that we are talking about here.
    Mr. Walker. Absolutely.
    Senator King. I noted in my background research for this 
hearing, there are a lot of storage initiatives in the 
Department of Energy and in various places in the Department of 
Defense.
    Is there a coordination issue? How do you coordinate all 
these different programs to be sure that they are sharing 
information, that one knows what the other is doing, that we 
are not reinventing the wheel in one program that we have 
already covered in another?
    Mr. Walker. Thank you, Senator.
    And that goes back to the heart of Senator Heinrich's 
question. We have advanced forward development of an Advanced 
Energy Storage Initiative which is also included in the FY20 
budget. That initiative, led by the Secretary, cuts across all 
of the different departments, ARPA-E, the Department of the 
Office of Science, all the applied sciences, to aggregate all 
of the otherwise disparate efforts on storage capability, both 
from a bidirectional electric storage down to flexible resource 
storage. So basically running the full gamut, everything that 
incorporates and is covered in a number of the other bills, 
things like transportation, battery waste management, 
coordination with the states, the regulatory components and, 
most notably, really driving down the cost and safety of long-
term storage.
    So the DAYS program that was put forward by the ARPA-E 
Department, in fact, was really meant to be and driven by, and 
we worked in close partnership with, the ARPA-E Department, to 
drive things like defense critical installations.
    So that $30 million funding opportunity that went out for 
10-hour to 100-hour, long-term storage is one of the initiating 
factors to bring us, throughout the Department of Energy, 
together to really focus on number one, driving the cost, 
eliminating any of the duplication, really being able to define 
things and success by the application of the different types of 
storage capabilities that there are.
    And so, we continue on that effort really challenging 
ourselves and building off of what the needs are of our most 
critical infrastructure, as well as those things that are going 
to further the integration of renewable, you know, capabilities 
and technologies with the utmost focus on the overall 
resilience of the bulk power system.
    And we're really, we really made some great strides in this 
arena, particularly as it relates to what the barrier is today 
which is in the case of the batteries that exist today, which 
were fundamentally developed for the integration of renewables, 
is the cost of vanadium and/or lithium and the fact that 
they're not necessarily owned or abundant in the United States.
    We have broken that nexus and now we're focused on other 
chemistry solutions that break us away completely from any of 
the supply chain risks and the costs associated that, today, 
eliminate us driving the cost of vanadium or lithium down.
    So through aqueous solution redox equation chemistry 
innovation, we are driving these costs down significantly while 
simultaneously breaking that supply chain and reliance on 
things like vanadium or lithium or things that are otherwise 
rare earth minerals controlled by other countries that we don't 
necessarily get along with.
    Senator King. Thank you. That is a wonderful analysis.
    Mr. Chairman, can I follow up with one additional question?
    Senator Cassidy. Yes.
    Senator King. Given that--and that was a very erudite 
response and I appreciate it--and this is not a hostile 
question.
    I am puzzled, given the significance and success of ARPA-E 
in the past, why it is slated for zeroing out in the 
Administration's budget? It seems to me it has been one of the 
most successful of Department of Energy programs, and I just 
worry that if it goes away there will be a loss of impetus 
behind the research imperative that we have in this area.
    Mr. Walker. Excellent question.
    And so, similar to the Advanced Energy Storage Initiative, 
one of the things that we are trying to do is cut across what 
we are doing and I'll give you another example where we've done 
that, cut across the different siloes that exist through 
different varying platforms that enable us to join the forces 
of the different departments.
    So similar to that Advanced Energy Storage Initiative that 
I mentioned earlier, in the Grid Modernization Initiative, 
which up until last year was simply a partnership between EERE 
as well as the Office of Electricity, my office, we've now 
further expanded that platform to include the five applied 
sciences and many of the function capabilities depending on 
what the determination/appropriation is for ARPA-E and some of 
the functions there.
    So ARPA-E has been working very closely with each of the 
applied sciences and the Office of Science, and we believe that 
there's an opportunity to consolidate the work that they're 
doing and more cohesively meet the needs of the applied 
sciences with an ARPA-E type function but using the grid 
modernization initiative to do that.
    Senator King. But I assume if the Congress appropriates 
funds for ARPA-E, you will administer it according to the law?
    Mr. Walker. Yes, sir.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Cassidy. Thank you.
    Mr. Bennett, there is a megatrend toward using more natural 
gas for electricity generation. What percent of your carbon 
capture research is specific for natural gas as opposed to 
combined with efforts related to coal?
    Mr. Bennett. Chairman Cassidy, and again we truly 
appreciate your comments earlier about CCUS and as well as 
really growing this important topic and really the commitment 
of this Committee.
    And I do not have an exact number for the percent. I can 
say that we do have 97 active projects working.
    Senator Cassidy. Now if I can interrupt just because we 
have limited time.
    It is my understanding, not my foolproof knowledge, that 
most of the effort is going toward coal even though whatever we 
think of the generation of electricity by coal is declining 
with many more retirements and visage and the amount of 
generation by natural gas is growing significantly and will 
continue to grow. It is now, I think, 35 percent of the grid, 
as I mentioned.
    So why would DOE not have more of an effort that is 
specific, not just for natural gas, but also for the later 
technology which is the combined cycle natural gas plant?
    Mr. Bennett. Chairman Cassidy, that is a great question.
    So when you look at CCUS technology over the past ten 
years, we have spent approximately $4 billion in CCUS 
technology. While that has been mainly focused on coal, we 
currently have about five projects that are working both on 
flue gas and natural gas as well as coal. And currently----
    Senator Cassidy. Now, let me come back because as well as 
coal--so you have 95 projects, five of which include natural 
gas but none of which are specific for natural gas.
    Why would you not have one which is specific, not just for 
natural gas, but also for the combined cycle which is, of 
course, a different set of technologies which I am told allow 
gas to be captured at different points along the way, not just 
in the flue?
    Mr. Bennett. Chairman Cassidy, and we are currently, 
through the National Carbon Capture Center actually 
retrofitting a natural gas boiler to test additional 
technologies for, specifically for natural gas.
    Now regarding the technology that goes into carbon capture, 
the applications remain mainly the same between coal and 
natural gas.
    Senator Cassidy. Now I am going to disagree with you a 
little bit and I hesitate to do so because you are the expert, 
but I am told that if you retrofit a coal plant for gas it is 
not as efficient, number one. Number two, it won't be combined 
cycle. And number three, whereas in coal it is in the flue, in 
combined cycle there are numerous steps along the way.
    I go back to if we have an increasing amount of gas and a 
decrease in amount of coal, but the focus is basically, it 
sounds like, 99 percent upon coal, with kind of, you know, I 
don't want to be rude about this, but kind of the stepchild 
treatment of gas. That seems to be, kind of, ignoring a 
megatrend. Does that make sense?
    Mr. Bennett. No, Chairman Cassidy, I do understand that and 
the question.
    And again, as you are, as you did mention, natural gas is 
playing a more predominant role in electric generation. But 
again, when we look at the carbon capture, we are focusing more 
toward natural gas. You're starting to see that with the carbon 
capture. Actually, we had Exxon and Total just join the NCCC, 
the National Carbon Capture Center, since they are interested 
in natural gas capture. So that is a focus that the Department 
of Energy is taking on as well.
    Now historically, it has been focused on coal. You are 
correct there. But it has also had applications within natural 
gas as well.
    And really, you know, I can understand with the flue gas 
comment there are definitely differences. However, with the, 
when you look at carbon sequestration and the amount of carbon 
that comes out of coal-fired power plants versus carbon that 
comes out of natural gas-fired power plants, obviously it is 
significantly more.
    The success that we do have in coal-fired generation with 
CCUS is applicable to natural gas because if we are successful 
there, that can be applied to natural gas and be more 
commercially and economically viable.
    Senator Cassidy. I am going to interrupt just for the sake 
of time.
    I accept what you are saying as a theoretical, but as an 
applied we do not know because apparently we are applying it to 
one and not the other.
    Part of this Committee is coming up with initiatives that 
other countries can follow and other countries are obviously 
using more and more natural gas. So that would just be the 
strong encouragement from this member of this Committee.
    Mr. Walker, you gave, kind of, a paradoxical statement at 
the outset. You, on the one hand, said that our grid will be 
more decentralized and therefore more secure. Then you, in 
multiple other areas, spoke about wholesale integration using 
AI to, kind of, take all the bulk power around the country and 
to integrate. And seasonal transmission which I assume, again, 
if we are shipping something from the panhandle of Texas to the 
Northeast in the wintertime, then that is going to be 
integrated across different grids. So what is it? Are we 
decentralized or are we more integrated than we ever were? Do 
you follow what I am saying?
    Mr. Walker. I think so, Senator.
    So the statement I was making was that, you know, today and 
over the last 20 years we've been transitioning from a bulk 
power system with generation, transmission lines and load 
without much penetration of renewables. Obviously, over the 
last 20 years, that transition has significantly increased, as 
has the fuel sources as the discussion has been ensuing, with 
regard to the generation sources for each of the degeneration 
capacity components.
    The point I'm making is one, today, what we're pushing is 
bulk power storage as well as other types of storage. Not the 
only type of storage, but the long duration storage to be able 
to work through some of the challenges that we have on our 
transmission and generation systems today, particularly as we 
integrate megawatt-scale renewables.
    So, today----
    Senator Cassidy. I am still not sure I am getting--you say 
we are decentralized but if we are going to have bulk power, 
utility grade storage, then that is not decentralization, that 
is still resident within a power plant, presumably, and then 
going through the same transmission lines.
    Mr. Walker. Senator, it depends on how the system is 
designed.
    Today I would argue that our system is fundamentally 
centralized with a small portion of megawatt-scale renewable 
penetration of the system. As we add in bulk power storage, it 
will become less and less centralized because that storage will 
be able to be utilized in various levels of the system----
    Senator Cassidy. I got it. So it will be two poles.
    Mr. Walker. Right.
    Senator Cassidy. As of right now, it is the power plant, so 
it would be the power plant plus the bulk storage.
    Mr. Walker. Bulk storage, and bulk storage will also be 
able to be utilized on the distribution system as well.
    Senator Cassidy. We will have a question for the record.
    Mr. Walker. Sure.
    Senator Cassidy. And several things you have mentioned, 
they are very promising but we don't have a sense of the time 
horizon. So we will ask both the time horizon and the projected 
expense of full deployment as a QFR.
    I think my Ranking Member has a follow-up question.
    Senator Heinrich. I think one of the things that the 
Chairman raised that is very interesting is where the storage 
goes. One of the interesting things we have seen with regard to 
utility deployment is that that storage is now being decoupled 
from generation of any sort, in many cases, and used to replace 
either transmission or other infrastructure like transformers 
on the grid which will allow a very different way of optimizing 
a distributed grid.
    I also wanted to say just a bit about the idea of a 
megatrend with regard to natural gas. Certainly natural gas has 
been on a tear over the course of the last ten years in terms 
of electric generation. But it is interesting--I was just 
reading an article about FERC revising their three-year 
forecasts through 2022, and they are now predicting a 
retirement of 17 gigawatts of coal and a retirement of 7 
gigawatts of nuclear, which certainly does not help us 
decarbonize the grid. But an addition of 28 gigawatts of gas 
with 10 in retirements, so a net increase of 18. But additions 
in wind at 27 and additions in solar at 16, which adds up to 
almost 43 gig in renewable additions, is about twice what we 
are seeing in natural gas. So I think we have another trend 
that is emerging at the moment.
    Mr. Bennett, I want to ask you a question about the next 
phase of all of this which is, how do we decarbonize some of 
the high temperature, industrial processes that are going to be 
the hard stuff in the future? And this is the role of DOE to 
think about these things, to do the research and then other 
people come along and commercialize these things. So, steel, 
cement, those kinds of industrial processes, what are you doing 
to decarbonize those?
    Mr. Bennett. Ranking Member Heinrich, and again, great 
question.
    This goes back to your earlier question here this morning 
and that's the fact that the Department of Energy has a very 
strong record of tackling these very tough questions. That's 
what we're really posed with doing. And that's, again, with the 
industrial gases and similar from the coal and natural gas, 
they do act very similar in nature. So the successes that we 
have on one, hopefully, we can transfer more to the other.
    And in that vein, in just this year and I guess last year, 
but we are working currently. Secretary Perry requested the 
National Petroleum Council to do a study on carbon capture and 
underground sequestration, CCUS, that would look at the 
business quick case, not just for coal and natural gas, but 
also industrial gases as well. So really the recommendations 
that will come from that will help guide us as we look at 
utilizing industrial sources for carbon capture and 
sequestration.
    Senator Heinrich. Mr. Walker, I have one last question for 
you and that is, you know, we were talking about distributed 
resources and we are seeing utilities, more and more often, use 
a number of distributed and even non-wires alternatives.
    We are seeing advanced demand response where in the old 
days demand response was someone at the utility, like my dad, 
calling up a factory and saying can you dial it back for the 
next three hours because we have a peak here and we cannot meet 
the demand? Today you have a cell phone connection between 
someone's water heater that can automatically turn it on and 
off within certain parameters and that can be aggregated over 
the course of an entire city or an entire distribution area. 
That requires a lot of computation, which is something DOE is 
good at.
    What are we doing to get the right tools in the hands of 
co-ops, utilities, and community choice aggregators so that 
they can use those advanced and distributed tools to really 
save ratepayers money and increase the penetration of clean 
electricity as well?
    Mr. Walker. Thank you, Senator. That's an important point.
    With the advent of number one, long-term storage, short-
term storage, flexible resources, you introduce a high level of 
complexity with regard to the dynamics associated with, you 
know, running a system where load really has to match 
generation as closely as possible all the time, otherwise we 
run into things like under frequency, you know, problems and 
things like that.
    So throughout the labs and throughout much of the work that 
is being done through the Office of Electricity, through the 
Energy Efficiency Office, we are looking at and developing tool 
sets for--and promulgating those out through things like NASEO, 
NGA, the NARUC organizations--for things like flexible building 
loads, grid services for vehicle charging. I can go on and on. 
I've got a list literally sitting in front of me of all the 
different types of things that we're doing, dealing with the 
dynamics of the load and being able to maximize and optimize 
the system.
    One of the things I think is important as we move forward 
in that space is recognizing the complexity associated with the 
addition of all of the different capabilities, and to that end, 
we are spending a great deal of time working through the labs 
to build the control algorithms necessary to optimize that, 
much like the advent and, I think, success of the microgrids. 
Early microgrid technology was fairly simple. It has continued 
to evolve with the complexities associated with integrating 
more and more components.
    We continue to spend a lot of time working on the 
electronics, the power electronics necessary to be able to 
optimize the utilization, particularly as it relates to things 
like storage, some of the wind, some of the renewable 
technologies in this process.
    And through this we work with, I know just within the 
Office of Electricity, we're working with about 25 different 
universities on this to develop different tool sets. We work 
with about 35 to 40 different private industry groups. Once 
that's done, DOE, we work through our department, OTT, to bring 
it out for tech transfer capability to get those things 
licensed, to get them out into industry so that they can be 
promulgated and utilized by the consumer and by the utility 
industry.
    So we've got a lot of efforts focused--about a third of, 
maybe actually a sixth, of my program just in the Office of 
Electricity is focused on working with state regulators in 
getting information out.
    In fact, we have built an entire computer system that 
enables, or computer program, that enables anybody to go on to 
it and look at what the regulatory processes are for any 
particular state, what the standards are, where there are 
penetrations of different things of storage.
    And we have developed over the last few years and continue 
to work with Sandia and NRECA and EPRI to develop a very, very 
comprehensive report that comes out of Sandia that's about 350 
pages that goes into a lot of the capabilities and tool sets 
that are available.
    Senator Heinrich. Fantastic, thank you.
    Senator Cassidy. Thank you.
    This concludes the hearing. The record will remain open for 
questions for the record and follow-up comments.
    With that, this hearing is adjourned. Thank you.
    [Whereupon, at 11:14 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------    
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              

</pre></body></html>
